No.

IN THE SUPREME COURT OF THE UNITED STATES

DAVID PAUL MARTINEZ,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I certify that on this 29th day of January, 2021, in accordance with Sup. Ct.
R. 29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to
Proceed In Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying
Timely Filing, were served by third-party commercial carrier for delivery within
three days upon the Office of the Solicitor General of the United States of America,
950 Pennsylvania Ave., NW, Washington, D.C. 20530-0001.
Dated: JanuarT , 2021

STEVEN G.
Fed ral Pu

Defender

VA ELL L. FU R*
Assistant Federal Public Defender
* Counsel of Record
LARA S. VINNARD
Assistant Federal Public Defender
55 South Market Street, Suite 820
San Jose, CA 95113
varell_fuller@fd.org
(408) 291-7753

